No. 20-101

In the Supreme Court of the United States
LLOYD HARRIS, PETITIONER,
v.
STATE OF MARYLAND
ON PETITION FOR A WRIT OF CERTIORARI TO THE
COURT OF SPECIAL APPEALS OF MARYLAND

CERTIFICATE OF ELECTRONIC SERVICE

Pursuant to Supreme Court Rule 29.3 and the Court’s
April 15, 2020 Order, I certify that Petitioner and
Respondent consented to receive service of the Brief of
the Maine, Vermont, and Washington Associations of
Criminal Defense Lawyers as Amici Curiae in Support of
Petitioner electronically and I caused electronic copies of
the brief to be served via email on all parties.
Executed on October 5, 2020.
/s/ R. Stanton Jones
R. STANTON JONES
Counsel of Record
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
stanton.jones@arnoldporter.com
Counsel for Amici Curiae

